RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 21Robert Paul Rundo, Robert Boman,
Tyler Laube, and Aaron Eason,
Petitioners,
v.
United States of America,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Brianna Mircheff, hereby certify
that the Petition for a Writ of Certiorari in the foregoing case contains 8,921 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 8, 2021.
/s/ Brianna Mircheff
BRIANNA MIRCHEFF
Federal Public Defender’s Office
Central District of California
321 East 2nd Street
Los Angeles, CA 90012
(213) 894-4784
Brianna_Mircheff@fd.org

